Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 THE MEDICARE CONTRACTORS
     FOR JURISDICTION 6
   OVERPAID PROVIDERS FOR
 SELECTED OUTPATIENT DRUGS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                        April 2014
                                                      A-06-13-00013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


  The Medicare contractors for Jurisdiction 6 overpaid providers by $3 million for selected
  outpatient drugs over 3 years.


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that the Medicare contractors
for Jurisdiction 6 made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

During our audit period (July 1, 2009, through June 30, 2012), Noridian Healthcare Solutions,
LLC (Noridian), formerly Noridian Administrative Services, LLC, was the Medicare contractor
for Minnesota, and National Government Services, Inc. (NGS), was the Medicare contractor for
Illinois and Wisconsin. The two Medicare contractors paid providers $938.3 million for 1.6
million line items for selected outpatient drugs. We reviewed 1,243 line items with total
payments of $11.3 million that were at risk for overpayment.

Effective September 2013, NGS became the Medicare contractor for Jurisdiction 6 (Minnesota,
Illinois, and Wisconsin) and assumed responsibility for claims formerly paid by Noridian.
Accordingly, we have addressed our findings and recommendations to NGS for review and
comment.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                 i
WHAT WE FOUND

Payments that the Medicare contractors for Jurisdiction 6 made to providers for 531 of the
1,243 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $3,071,070 and underpayments of $61,656 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $630,482 of overpayments for another 152 line items. The remaining 560 line
items were correct.

For the 514 incorrect line items with overpayments of $3,071,070 that had not been refunded,
providers reported incorrect units of service, reported a combination of incorrect units of service
and incorrect HCPCS codes, used incorrect HCPCS codes, did not provide supporting
documentation, and billed for a drug that was reimbursed by a drug manufacturer. For the 17
incorrect line items with underpayments of $61,656 that had not been adjusted, we notified the
providers of the underpayments so that they could decide whether to submit adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because there were insufficient edits in place to prevent or
detect the overpayments.

WHAT WE RECOMMEND

We recommend that NGS:

    •   recover the $3,071,070 in identified overpayments,

    •   verify the payment of $61,656 in identified underpayments, and

    •   use the results of this audit in its ongoing provider education activities.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS said that it would begin processing claim
adjustments to recover the overpayments and would review the claims associated with the
underpayments and adjust them accordingly. NGS also described ongoing provider education
activities that it was performing.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                 ii
                                                     TABLE OF CONTENTS


INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 Noridian Healthcare Solutions, LLC, and National Government
                   Services, Inc. ...................................................................................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................4

           Federal Requirements ....................................................................................................4

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Incorrect Number of Units of Service ................................................................5
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes ..................5
                  Incorrect Healthcare Common Procedure Coding System Codes .....................6
                  Lack of Supporting Documentation ..................................................................6
                  Incorrect Billing for a Drug Reimbursed by the Manufacturer .........................6

           Underpayments to Providers That Billed Incorrectly ....................................................6

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................7

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ...........................................7

APPENDIXES

           A: Related Office of Inspector General Reports: Jurisdiction 6 ..................................8

           B: Audit Scope and Methodology ..............................................................................10




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                                            iii
        C: Federal Requirements Related to Medicare Contractor Payment and
            Provider Billing for Selected Outpatient Drugs ..................................................12

        D: National Government Services, Inc., Comments ...................................................14




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                             iv
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction 6.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractors for
Jurisdiction 6 made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient

1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim-payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of the reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.


Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                 1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.

Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care
organizations the opportunity to review and comment on the proposed edits. Medicare

4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to the Medicare contractors.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                2
contractors must include the medically unlikely edits in their payment systems. 7

Noridian Healthcare Solutions, LLC, and National Government Services, Inc.

During our audit period (July 1, 2009, through June 30, 2012), Noridian Healthcare Solutions,
LLC (Noridian), formerly Noridian Administrative Services, LLC, was the Medicare contractor
for Minnesota, and National Government Services, Inc. (NGS), was the Medicare contractor for
Illinois and Wisconsin.

Effective September 2013, NGS became the Medicare contractor for Jurisdiction 6 (Minnesota,
Illinois, and Wisconsin) and assumed responsibility for claims formerly paid by Noridian.
Accordingly, we have addressed our findings and recommendations to NGS for review and
comment.

HOW WE CONDUCTED THIS REVIEW

During our audit period, the Medicare contractors for Jurisdiction 6 paid providers
$938.3 million for 1.6 million line items for selected outpatient drugs. We reviewed 1,243 line
items 8 with total payments of $11.3 million that were at risk for overpayment. These line items
were for outpatient drugs with payment status indicator code “G” or “K.” 9 We used computer
matching, data mining, and other analytical techniques to identify the line items potentially at
risk for noncompliance with Medicare billing requirements. We evaluated compliance with
selected billing requirements, but we did not use medical review to determine whether services
were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.




7
 CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.
8
    In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
9
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                 3
                                                FINDINGS

Payments that the Medicare contractors for Jurisdiction 6 made to providers for 531 of the
1,243 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $3,071,070 and underpayments of $61,656 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $630,482 of overpayments for another 152 line items. The remaining 560 line
items were correct.

For the 514 incorrect line items with
overpayments of $3,071,070 that had
not been refunded, providers:

    •   reported incorrect units of
        service on 332 line items,
        resulting in overpayments of
        $2,595,264;

    •   reported a combination of
        incorrect units of service and
        incorrect HCPCS codes on
        125 line items, resulting in
        overpayments of $297,550;

    •   used incorrect HCPCS codes on 30 line items, resulting in overpayments of $81,693;

    •   did not provide supporting documentation for 18 line items, resulting in overpayments of
        $78,817; and

    •   billed for a drug reimbursed by the drug manufacturer on 9 line items, resulting in
        overpayments of $17,746.

For the 17 incorrect line items with underpayments of $61,656 that had not been adjusted, we
notified the providers of the underpayments so that they could decide whether to submit
adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because neither the CWF nor the FISS had sufficient edits
in place to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital



Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                 4
outpatient services. They require that providers submit accurate and complete bills to Medicare
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 10

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 332 line items, resulting in overpayments of
$2,595,264. The incorrect units of service involved 70 different outpatient drugs. The following
are examples:

       •   One provider administered 1,000 milligrams of gemcitabine hydrochloride to one patient
           on two separate occasions and billed for 1,000 units of service (200,000 milligrams) each
           time. Using the HCPCS description of gemcitabine hydrochloride (injection,
           gemcitabine hydrochloride, 200 milligrams), the correct number of units to bill for 1,000
           milligrams was 5. As a result, the Medicare contractor paid the provider $275,183 when
           it should have paid $1,109, an overpayment of $274,074.

       •   Another provider administered 145 milligrams of docetaxel to one patient on three
           separate occasions and billed for 145 units of service (2,900 milligrams) each time.
           Using the HCPCS description of docetaxel (injection, docetaxel, 20 milligrams), the
           correct number of units to bill for 145 milligrams was 8. 11 As a result, the Medicare
           contractor paid the provider $144,384 when it should have paid $6,509, an overpayment
           of $137,875.

In total, the Medicare contractors paid 98 providers $3,265,263 when they should have paid
$669,999, an overpayment of $2,595,264.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
125 line items. These errors resulted in overpayments of $297,550. For example, 17 providers
billed Medicare on 122 line items for 2 to 12 units of service for leuprolide acetate injections
(HCPCS code J1950, 3.75 milligrams per unit), which is indicated for the treatment of

10
     These requirements are found in the Act, section 1833(e), and the Manual, chapter 17, section 90.2.A.
11
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor for the code to report the administered dose.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                  5
endometriosis, uterine leiomyoma, and malignant neoplasms of the breast. However, the
providers should have billed Medicare for 1 to 6 units of service for leuprolide acetate injections
(HCPCS code J9217, 7.5 milligrams per unit), which is indicated for the treatment of prostate
cancer and was the dose actually administered. As a result of these errors, the Medicare
contractor paid the providers $336,489 when it should have paid $68,363, an overpayment of
$268,126.

In total, the Medicare contractors paid 20 providers $368,993 when they should have paid
$71,443, an overpayment of $297,550.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on 30 line items, resulting in overpayments of $81,693.
For example, one provider billed Medicare on one line item for 13 units of zoledronic acid
(HCPCS code J3487). However, the provider should have billed for 13 units of bortezomib
(HCPCS code J9041), the drug actually administered. As a result of this error, the Medicare
contractor paid the provider $2,256 when it should have paid $390, an overpayment of $1,866.

In total, the Medicare contractors paid 15 providers $86,700 when they should have paid $5,007,
an overpayment of $81,693.

Lack of Supporting Documentation

Fourteen providers billed Medicare on 18 line items for which the providers did not provide any
documentation to support that a patient had received the drug service billed. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $78,817 in overpayments that they received.

Incorrect Billing for a Drug Reimbursed by the Manufacturer

One provider billed Medicare for doxorubicin hydrochloride liposome, a drug included in a drug
replacement program in which the drug manufacturer reimbursed the provider for the
administration of the drug. Medicare does not pay for drugs reimbursed by the drug
manufacturer. On nine separate occasions, this type of error occurred, and as a result, the
Medicare contractor paid the provider $17,746 when it should have paid $0, an overpayment of
$17,746.

UNDERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY

Seven providers billed Medicare on 17 line items for outpatient drug services that included either
incorrect units of service or a combination of incorrect units of service and incorrect HCPCS
codes, resulting in underpayments of $61,656. We identified these underpayments and notified
the providers so that they could decide whether to submit adjustment claims for the
underpayment amounts.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                 6
CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
systems errors included chargemaster 12 errors and other system errors.

The Medicare contractors overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
providers to notify the Medicare contractors of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 13

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.

                                          RECOMMENDATIONS

We recommend that NGS:

     •   recover the $3,071,070 in identified overpayments,

     •   verify the payment of $61,656 in identified underpayments, and

     •   use the results of this audit in its ongoing provider education activities.

                 NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS said that it would begin processing claim
adjustments to recover the overpayments and would review the claims associated with the
underpayments and adjust them accordingly. NGS also described ongoing provider education
activities that it was performing. NGS’s comments are included in their entirety as Appendix D.




12
  A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including
(1) a factor that converts a drug’s dosage to the number of units to bill and (2) whether to charge for waste.
13
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                 7
           APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                                JURISDICTION 6


               Report Title                         Report Number                  Date Issued
 The Medicare Contractor’s Payments                  A-05-11-00112                  12/13/2012
 in Jurisdiction 6 and 8 for Full Vials
 of Herceptin Were Often Incorrect
 Review of Medicare Outpatient                       A-09-12-02021                  8/28/2012
 Billing for Selected Drugs at Essentia
 Health Duluth
 The Medicare Contractor’s Payments                  A-05-12-00010                  7/27/2012
 in Jurisdiction 6 for Full Vials of
 Herceptin Were Often Incorrect
 Review of Medicare Outpatient                       A-09-12-02033                  7/17/2012
 Billing for Selected Drugs at
 Touchette Regional Hospital
 The Medicare Contractor’s Payments                  A-05-10-00091                  7/10/2012
 in Jurisdiction 6, 8, and 15 to
 Providers for Full Vials of Herceptin
 Were Often Incorrect
 Review of Medicare Payments                         A-05-10-00025                  12/15/2011
 Exceeding Charges for Outpatient
 Services Processed by National
 Government Services, Inc., in
 Jurisdiction 6—Illinois and Wisconsin
 for the Period January 1, 2006,
 Through June 30, 2009
 Review of Medicare Payments                         A-05-10-00020                  9/14/2011
 Exceeding Charges for Outpatient
 Services Processed by Noridian
 Administrative Services, LLC, in
 Jurisdiction 6—Minnesota for the
 Period January 1, 2006, Through
 June 30, 2009
 Review of High-Dollar Payments for                  A-05-08-00022                  4/24/2009
 Services Processed by Wisconsin
 Physicians Service for the Period
 January 1, 2004, Through
 December 31, 2006




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)            8
               Report Title                         Report Number                  Date Issued
 Review of High Dollar Payments for                  A-05-08-00027                      9/3/2008
 Inpatient Services Processed by
 National Government Services in
 Illinois, Indiana, Kentucky, and Ohio
 for Calendar Years 2004 Through
 2006—Hospitals With Less Than 10
 High Dollar Payments




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)              9
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractors for
Jurisdiction 6 paid providers $938.3 million for 1.6 million line items for selected outpatient
drugs. We reviewed 1,243 line items, totaling $11.3 million, that the Medicare contractors paid
to 137 providers. 14 We did not review entire claims; rather, we reviewed specific line items
within the claims. These line items included selected outpatient drugs with payment status
indicator code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that
include a pass-through payment. 15 “K” identifies drugs, biologicals, therapeutic
radiopharmaceuticals, brachytherapy sources of radiation, blood, and blood products paid using
the OPPS without a pass-through payment.

We did not review the overall internal control structure of the Medicare contractors or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractors’ internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

Our fieldwork included contacting NGS and Noridian, located in Indianapolis, Indiana, and
Fargo, North Dakota, respectively, and 137 providers that received the selected Medicare
payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with payment status indicator code “G” or “K”) for
         which Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single
14
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.

15
 Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)                                10
        date of service because these line items were at risk for noncompliance with Medicare
        billing requirements;

    •   selected 1,243 line items at risk of error, totaling $11,338,374, that the Medicare
        contractors paid to 137 providers;

    •   requested that 137 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to the claim due to changes in
        the allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractors; and

    •   discussed the results of our review with providers and the Medicare contractors.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)               11
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
        CONTRACTOR PAYMENT AND PROVIDER BILLING FOR SELECTED
                          OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract ….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”

The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a



Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)              12
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”

The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug in
which an “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4 ….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A-06-13-00013)              13
      APPENDIX D: NATIONAL GOVERNMENT SERVICES, INC., COMMENTS 




            4"...L.Nationalserv1ces.
               ~
                             c~vernm~
                                                                                                                MEDICARE
                8115 Knue Road 

                Indianapolis, IN 46250 


                WNW   NGSMedicare com



                March 24, 2014


                Ms. Patricia Wheeler 

                Regional Inspector General for Audit Services 

                Office of Inspector General 

                Office of Audit Services, Region VI 

                11 00 Commerce Street, Room 632 

                Dallas, TX 75242 


                Report Number: A-06-13-00013


                Dear Ms. Wheeler,

                The following represents our response to the comments made in your report dated February25, 2014:

                Recommendation 1 - Recover the $3 071 070 in identified overpayments
                NGS Claims will begin processing adjustments on the claims provided by the OIG using the correct
                HCPCS codes and number of units also provided on the list. We anticipate that these can be completed
                no later than April 30, 2014. At that time, the overpayments will be researched to determine the recovery
                amount and the date of the recovery, this process will take approximately 3 weeks to complete.

                Recommendation 2- Verifv the payment of $61 656 in identified underpayments
                NGS Claims will review these items to determine whether an adjustment has already been submitted by
                the providers for the additional payment. The OIG report states that these providers were notified of the
                underpayments and advised that they could submit adjustments if they choose to. Once NGS Claims has
                identified the adjustments and amounts, the underpayments will be researched to determine the paid
                date. Any underpayments that have not been adjusted by the provider, will be adjusted accordingly by
                NGS

                Recommendation 3 - Use the results of this audit in its ongoing provider education activities
                Provider Outreach and Education (POE) has conducted the following education that included information
                about the correct reporting of units of drugs and drug wastage, which are the basic issues addressed in
                the OIG report.

                    Acute Care Hospital Updates and Reminders webinar conducted on March 13, 2012 and repeated on
                    March 19, 2012.
                    Awebinar about discarded drugs and units was conducted on August 15, 2012.
                    Acute Outpatient Hospital Basic Billing Webinar that included discussion of units for drugs was
                    conducted on November 30, 2012.
                    Education regarding Herceptin was published on the web on August 1 , 2012. In addition, this was
                    Included in the September 2012 MMR. At the Hematology Oncology Managers of New York
                    (HOM NY) Annual Meeting held on March 15, 2013, attendees were again advised to go to the




Medicare Overpayments in Jurisdiction 6 for Selected Outpatient Drugs (A -06-13-00013}                                      14
                 website. In addition and part of ongoing outreach POE released the following education on March 6 ,
                 2014:
                         o How to Respond to Additional Development Requests for Herceptin Billing.
                              Several providers are responding to Herceptin-related additional development requests
                              (ADRs) w ithout providing the required information. Herceptin billing must contain the
                              number of millig rams that were used and the number of milligrams that were wasted. In
                              the cases that have been identified, providers have failed to complete the form and have
                              sent in medical records instead. Please complete the blanks on the form for the number
                              of milligrams administered and number of milligrams wasted. Do not send medical
                              records for these claims. You may enter this information on the original claim submission
                              in item 19, or on the 2300/2400 loop for electronic claims to p revent a development letter
                              from being sent.

             POE is planning to conduct another webinar to discuss the correct billing of units of drugs and drug
             wastage. This issue w ill also be mentioned in POE's upcoming Virtual Sessions.




             Sincerely yours,

             /s/ Suzanne Woodring

             Suzanne Woodring,
             Director NGS Operations




/IJedicare Ovepayments in Jurisdiction 6for Selected Outpatient Drugs (A-06-13-00013)                                       15
